<html>
<title> - H.CON.RES. 151</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                             H.CON.RES. 151

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

                             H.CON.RES. 151

  EXPRESSING THE SENSE OF THE CONGRESS THAT THE UNITED STATES SHOULD 
MANAGE ITS PUBLIC DOMAIN NATIONAL FORESTS TO MAXIMIZE THE REDUCTION OF 
 CARBON DIOXIDE IN THE ATMOSPHERE AMONG MANY OTHER OBJECTIVES AND THAT 
 THE UNITED STATES SHOULD SERVE AS AN EXAMPLE AND AS A WORLD LEADER IN 
 ACTIVELY MANAGING ITS PUBLIC DOMAIN NATIONAL FORESTS IN A MANNER THAT 
    SUBSTANTIALLY REDUCES THE AMOUNT OF CARBON DIOXIDE ADDED TO THE 
                               ATMOSPHERE

                               __________

                   SEPTEMBER 18, 1997, WASHINGTON, DC

                               __________

                           Serial No. 105-61

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 46-036 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director

                                 ------                                

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JAMES V. HANSEN, Utah                MAURICE D. HINCHEY, New York
JOHN T. DOOLITTLE, California        BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
JOHN PETERSON, Pennsylvania          ENI F.H. FALEOMAVAEGA, Am. Samoa
RICK HILL, Montana                   ---------- ----------
BOB SCHAFFER, Colorado               ---------- ----------
                      Bill Simmons, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                    Liz Birnbaum, Democratic Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held September 18, 1997..................................     1

Statements of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     1
        Prepared statement of....................................     2

Statements of witnesses:
    Department of the Interior, prepared statement of............    98
    Lyons, James R., Undersecretary for Natural Resources and 
      Environment, United States Department of Agriculture.......     3
        Prepared statement of....................................    27
    Oliver, Chadwick D., Professor, University of Washington, 
      College of Forest Resources................................    15
    Perez-Garcia, John M., Associate Professor, College of Forest 
      Resources, University of Washington........................    13
        Prepared statement of John M. Perez-Garcia, Associate 
          Professor, College of Forest Resources, University of 
          Washington and Chadwick D. Oliver, Professor, 
          University of Washington, College of Forest Resources..    46
    Ross, Gordon, County Commissioner, Coos County, Oregon.......    17
        Prepared statement of....................................    29
        Affidavit of Gordon Ross.................................    70
        How Much Old Growth Can We Save?.........................    97

Additional material supplied:
    Briefing Paper...............................................    27
    Evergreen, magazine, question and answer.....................    94
    Forest and Wood Products, Role in Carbon Sequestration, R. 
      Neil Sampson...............................................    34
    Text of H.Con.Res. 151.......................................    31


 HEARING ON: H.CON.RES. 151, EXPRESSING THE SENSE OF THE CONGRESS THAT 
 THE UNITED STATES SHOULD MANAGE ITS PUBLIC DOMAIN NATIONAL FORESTS TO 
 MAXIMIZE THE REDUCTION OF CARBON DIOXIDE IN THE ATMOSPHERE AMONG MANY 
OTHER OBJECTIVES AND THAT THE UNITED STATES SHOULD SERVE AS AN EXAMPLE 
 AND AS A WORLD LEADER IN ACTIVELY MANAGING ITS PUBLIC DOMAIN NATIONAL 
  FORESTS IN A MANNER THAT SUBSTANTIALLY REDUCES THE AMOUNT OF CARBON 
                    DIOXIDE ADDED TO THE ATMOSPHERE.

                              ----------                              


                      THURSDAY, SEPTEMBER 18, 1997

        House of Representatives, Subcommittee on Forests 
            and Forest Health, Committee on Resources, 
            Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m. in 
room 1334, Longworth House Office Building, Hon. Helen 
Chenoweth (chairman of the Subcommittee) presiding.

  STATEMENT OF THE HON. HELEN CHENOWETH, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mrs. Chenoweth. The Subcommittee on Forests and Forest 
Health will come to order. The Subcommittee is meeting today to 
hear testimony on H.C.R 151. I would like to welcome our 
witnesses today. I am very pleased to be holding this hearing 
on H.C.R. 151, a concurrent resolution expressing the sense of 
the Congress that the United States should manage its public 
domain national forest to maximize the reduction of carbon 
dioxide in the atmosphere among many other objectives and that 
the United States should serve as an example and world leader 
in actively managing its public domain public forests in the 
manner that substantially reduces the amount of carbon dioxide 
added to the atmosphere.
    [Text of bill H.Con.Res. 151 may be found at end of 
hearing.]
    Mrs. Chenoweth. Chairman Young and I introduced this 
resolution along with Speaker Gingrich, Mr. Taylor of North 
Carolina, Mr. Herger, Mr. Peterson of Pennsylvania, Mr. Pombo, 
Mr. McInnis, Mr. Sessions, Mrs. Smith of Washington, Mr. Riggs, 
Mr. Cunningham, Mrs. Cubin, Mr. Nethercutt, Mr. Doolittle, Mr. 
Lewis of California, Mr. Skeen, Mr. Schaffer of Colorado, Mr. 
Hansen and Mr. Radanovich.
    Global warming has been an issue of great debate and 
discussion in Congress. Whether or not you believe human 
induced global climate change is occurred, this resolution 
deserves the support of everyone. Science has proven to us that 
carbon dioxide, the leading greenhouse gas, can be taken out of 
the atmosphere by allowing a young vibrant forest to absorb 
carbon through a photosynthesis. Carbon dioxide can also be 
kept out of the atmosphere by harvesting the forest before it 
begins to decompose or burn, thus storing the carbon in wood 
products that are environmentally friendly as well as providing 
an economic benefit to society and to communities.
    In the words of Gifford Pinchot quoting from his book 
Breaking New Ground, he states, ``the purpose of forestry, 
then, is to make the forest produce the largest possible amount 
of whatever crop or service will be most useful, and keep on 
producing it generation after generation.'' I agree with these 
sage words and feel that we must manage our forests better. One 
of the things that we must begin to do is to improve the 
management of the national forests to maximize the benefit to 
our environment.
    In December of this year, the United Nations Framework 
Convention on Climate change, which may commit the United 
States to mandatory greenhouse gas reductions, is expected to 
be signed in Kyoto, Japan. The ramifications of this treaty 
could be enormous for people in the United States, our economy 
and our way of life.
    There are alternatives to mandatory reductions of carbon 
emissions. One alternative is to manage our public forests 
better in order to extract from the atmosphere and store more 
carbon dioxide than we currently do. This means giving and 
using the controls on greenhouse gases that mother nature gives 
to us rather than controls that government mandates this nation 
to follow.
    President Teddy Roosevelt said, ``we have a right and a 
duty second to none, to protect ourselves and our children 
against the wasteful development of our natural resources, 
whether that waste is caused by the actual destruction of such 
resources or by making them impossible of development 
hereafter.'' Our charge then is to strike a proper balance in 
the management of our forests to maximize the benefits to the 
environment and prevent the wasteful development and 
destruction of our natural resources.
    The thrust of this resolution is to direct the Federal 
Government to take the lead in managing our national forests to 
reduce the levels of carbon dioxide in the atmosphere. By 
managing our public domain national forests to minimize 
additions of carbon dioxide into the atmosphere we will improve 
air quality, the health of our Nation's forests and set an 
example for other nations as the world prepares for the 
negotiations in Kyoto, Japan.
    [The prepared statement of Ms. Chenoweth follows.:]

 Statement of Hon. Helen Chenoweth, a Representative in Congress from 
                           the State of Idaho

    I would like to welcome our witnesses out today. I am very 
pleased to be holding this hearing on H.Con.Res. 151, a 
concurrent resolution expressing the sense of the Congress that 
the United States should manage its public domain National 
Forests to maximize the reduction of carbon dioxide in the 
atmosphere among many other objectives and that the United 
States should serve as an example and as a world leader in 
actively managing its public domain national forests in a 
manner that substantially reduces the amount of carbon dioxide 
added to the atmosphere.
    Chairman Young and I introduced this resolution along with 
Speaker Gingrich, Mr. Taylor of North Carolina, Mr. Herger, and 
Mr. Peterson of Pennsylvania, Mr. Pombo, Mr. McInnis, Mr. 
Sessions, Mrs. Smith of Washington, Mr. Riggs, Mr. Cunningham, 
Mrs. Cubin, Mr. Nethercutt, Mr. Doolittle, Mr. Lewis of 
California, Mr. Skeen, Mr. Schaffer of Colorado, Mr. Hansen, 
and Mr. Radanovich.
    Global warming has been an issue of great debate and 
discussion in Congress. Whether or not you believe human 
induced global climate change is occurring, this resolution 
deserves the support of everyone. Science has proven to us that 
carbon dioxide, the leading greenhouse gas can be taken out of 
the atmosphere by allowing a young vibrant forest to absorb 
carbon through photosynthesis. Carbon dioxide can also be kept 
out of the atmosphere by harvesting the forest before it begins 
to decompose or burn, thus storing the carbon in wood products 
that are environmentally friendly, as well as providing an 
economic benefit to society.
    In the words of Gifford Pinchot quoting from his book 
Breaking New Ground, he states, ``the purpose of Forestry, 
then, is to make the forest produce the largest possible amount 
of whatever crop or service will be most useful, and keep on 
producing it generation after generation . . .'' I agree with 
these sage words, and feel that we must manage our forests 
better. One of the things that we must begin to do is to 
improve the management of the National Forests to maximize the 
benefit to the environment.
    In December of this year, the United Nations Framework 
Convention on Climate Change, which may commit the United 
States to mandatory greenhouse gas reductions, is expected to 
be signed in Kyoto, Japan. The ramifications of this treaty 
could be enormous for people, the economy and our way of life.
    There are alternatives to mandatory reductions of carbon 
emissions. One alternative is to manage our public forests 
better in order to extract from the atmosphere and store more 
carbon dioxide than we currently do. This means using the 
controls on greenhouse gasses that mother nature gives to us 
rather than controls that government mandates us to follow.
    President Teddy Roosevelt said, ``we have a right and duty 
second to none, to protect ourselves and our children against 
the wasteful development of our natural resources, whether that 
waste is caused by the actual destruction of such resources or 
by making them impossible of development hereafter.'' Our 
charge then is to strike a proper balance in the management of 
our forests to maximize the benefits to the environment and 
prevent the wasteful development of our natural resources.
    The thrust of this resolution is to direct the Federal 
Government to take the lead in managing our National Forests to 
reduce the levels of carbon dioxide in the atmosphere. By 
managing our public domain national forests to minimize 
additions of carbon dioxide to the atmosphere we will improve 
air quality, the health of our nation's forests and set an 
example for other nation's, as the world prepares for the 
negotiations in Kyoto, Japan.

    Mrs. Chenoweth. And when the Ranking Minority Member 
arrives, I will recognize him for a statement. But now I will 
introduce our first panel, Mr. Jim Lyons, Undersecretary of 
Natural Resources and Environment, Department of Agriculture. 
Mr. Lyons, good to see you again.
    Mr. Lyons. Good to see you.
    Mrs. Chenoweth. Mr. Lyons, would you proceed.

    STATEMENT OF JAMES R. LYONS, UNDERSECRETARY FOR NATURAL 
    RESOURCES AND ENVIRONMENT, UNITED STATES DEPARTMENT OF 
                          AGRICULTURE

    Mr. Lyons. Thank you, Madam Chairman, and I want to 
apologize up front for the delay in getting testimony to you. 
We focused on some issues in the Senate the last few days and 
therefore, we were not able to focus in on this important 
matter, so I do apologize. I am also glad to see that you have 
been reading Breaking New Ground, which I gave you just the 
other day, so----
    Mrs. Chenoweth. That is right. I am enjoying it very much.
    Mr. Lyons. Very good. I am glad you are into it. I want to 
thank you for the opportunity to appear before you today to 
discuss the Administration's views regarding the active 
management of the national forests to maximize reduction in 
carbon dioxide in the atmosphere. We welcome the Congress' 
attention to this matter and concern for arresting, or at least 
addressing, global climate change, and we look forward to 
working with you in that regard. However, we must oppose H. 
Con. Res. 151 because of its narrow focus and perhaps its 
conflict with existing national forest management policy and 
legal direction.
    The premise of the concurrent resolution is that young, 
fast-growing trees fix carbon dioxide more efficiently than 
mature trees, and therefore, the Forest Service should maximize 
carbon sequestration by harvesting mature trees, converting the 
wood to durable products and replanting sites with seedlings, 
which will then take up carbon at a faster rate.
    As the Committee is aware, the scientific basis for our 
mutual concerns about global climate changes is extremely 
complex. Accordingly, our efforts to make substantive policy 
changes are equally complex and driven by scientific analysis. 
What I would like to do this morning is make three basic points 
or address three basic issues. One is the role of recycling in 
dealing with this issue; the second is the role of the national 
forests in the carbon cycle; and the third is the potential for 
carbon sequestration from Federal lands as opposed to private 
lands.
    The Forest Service Research Program has done some extensive 
research quantifying the benefits of recycling wood fiber on 
carbon releases into the environment. Through technology 
developed by the Federal Government and the private sector and 
supported by government incentives to recycle, the U.S. has 
made significant contributions to carbon sequestration by 
reducing energy costs of production and by reusing wood fibers 
several times before it ultimately ends up in landfills or 
disposed of in some other way.
    Recognizing the value of storing carbon in wood products 
and substituting wood products for more fossil fuel-consuming 
products, the President included in his 1993 Climate Change 
Action Plan, a proposal to extend paper recycling technology 
research. Priorities included research on the use of recycled 
wood and fiber in durable structural products suitable for the 
housing market. The President requested $2 million in increased 
funding for that research, however, unfortunately, only 
$200,000 was appropriated.
    The President's Forest Plan in the Pacific Northwest was 
analyzed specifically for its contribution to carbon 
sequestration. It thus offers, I think, a good case study to 
evaluate national forest management policies in general. Since 
a great deal of time and effort has been placed on the 
development of that plan. Contrary to the presumption of the 
concurrent resolution, the conservation strategy and the 
President's Forest Plan actually increases the amount of carbon 
dioxide sequestration by about 7 million metric tons per year 
by the year 2000. A careful balance was struck in forest 
protection and management in seeking to protect old-growth 
forests as described well in a 1990 Science magazine article by 
Harmon, Ferrell and Jerry Franklin, one of the key architects 
of the plan.
    In addition, the President's Forest Plan adopted strict 
standards harvesting so as to minimize the environmental 
effects of harvesting timber in the so-called matrix lands into 
the Forest Plan. And this approach, in fact, is supported by 
the work of R. Neil Sampson, who has testified before this 
Committee many times. Neil found that harvesting practices, 
such as clear cutting, eliminate canopy shade, increase soil 
temperatures, accelerate organic decomposition due to soil 
disturbance and have other negative impacts on carbon storage 
in the forested ecosystem. Since the Forest Plan minimizes 
clear cuts and focuses on protecting shade, foliage and canopy 
closures and, of course, minimizing ground disturbance because 
of the potential effects on water quality, the plan seems 
consistent with the recommendations of Mr. Sampson.
    Lastly, the President's Forest Plan meets all Federal land 
management and environmental laws and your resolution would 
create, I believe, a conflict with existing law. While the 
resolution suggests that national forests should be managed to 
maximize carbon sequestration, current law requires us to 
practice, of course, multiple use as requested by the 
philosophy of Gifford Pinchot and others. U.S. forest sector 
will store about 109 million metric tons of carbon in the year 
2000. Of this, the national forests are projected to fix 21 
million metric tons of carbon, store over 8 billion tons, as 
well as conserve biodiversity and provide for multiple use 
according to our legal mandates. And although the annual carbon 
storage and private forests is expected to decline over the 
next several decades due to the declining net growth in the 
Northeast, as trees age and removal of trees in the South 
increases, probably at the same rate as growth, annual carbon 
accumulation in our national forests is expected to increase.
    Finally, what I would like to do, Madam Chairman, is turn 
to the issue of maximizing growth of new biomass through forest 
management and how we best would capture that to achieve the 
goals that I think are part of your concurrent resolution. As 
you know, the productivity of forest land varies widely across 
the United States. Productivity, that is the rate at which 
trees grow or wood is accumulated, biomass is accumulated, is 
influenced by soil type and soil depth, growing season, rain 
fall, and many other factors. Productivity is commonly measured 
according to the number of cubic feet of wood which one acre of 
land could grow annually in a year's time. If Congress were 
interested in maximizing carbon sequestration through tree 
growth, I would suggest that is more logical for us to focus on 
investing in those most productive sites which will grow trees 
the quicker. Now I know you know this, Madam Chairman, but I 
just want to point out that 73 percent of the forest land in 
the United States is actually in private ownership, 59 percent, 
almost two thirds, is owned by what we refer to as 
nonindustrial private forest landowners, 14 percent of that is 
owned by the industry. Of the remaining 27 percent of land, 
which is in public ownership, the Forest Service administers 17 
percent. The Forest Service published a document called Forest 
Resources of the United States (1994), which summarizes forest 
productivity across all land ownerships using the standard of 
85 cubic feet per acre per year as a rate of production. In the 
West, for example, the Forest Service notes that 67 percent of 
the private industrial lands are capable of pro-

ducing more than 85 cubic feet per year compared to only 15 
percent on the national forests. The reason for this is that 
national forest lands are typically high elevation lands with 
shorter growing seasons, are often on steep slopes and poor 
sites. In fact that is why they are in public ownership and 
they have been referred to in the past as the lands that no one 
wanted. As Americans moved West and homesteaded, they, of 
course, homesteaded in those lands that were easier to access, 
that were more productive, that could support what then, of 
course, was an agrarian economy.
    Similarly, in the East, 55 percent of the private 
industrial land is capable of producing 85 cubic feet or more a 
year compared to only 20 percent of the national forest land. 
This trend is the same, though less dramatic, between 
nonindustrial private lands and national forest lands in both 
East and West. And in fact if you were to look at a breakdown 
of land ownership types by productivity, you would find--
industry lands, industrial lands are the most productive by 
far. Private nonindustrial lands are second. National forest 
system lands are third, and other public lands, lands 
administered by the BLM, Department of Defense and others are 
last in terms of productivity.
    My point is this, if growing trees quickly is our goal or 
the goal of the resolution, so as to maximize carbon 
sequestration, in my mind, it makes much more sense to focus 
our efforts to areas where we will receive the greatest return 
on our investment, in our investment in terms of carbon 
sequestration. That is on the most productive lands, i.e., 
private lands.
    The Forest Service can help make this investment, not 
through a change in priorities in our land management of public 
lands, but by providing technical and financial assistance to 
private landowners to help them increase their productivity. 
The state and private forestry programs of the Forest Service, 
and your staff and I were most recently out with the State 
Forest Meeting in Salt Lake City to discuss these programs, can 
deliver exactly this kind of assistance to landowners. In 
addition, the National Resources Conservation Service 
administers a number of programs which help landowners develop 
and implement plans that promote tree planting. The more 
efficient and effective place to focus tree planting in 
aggressive management really is on private lands. The 
President's Climate Change Action Plan includes two actions 
that provide technical assistance and cost-sharing assistance 
for nonindustrial private landowners to plant trees and improve 
forest management.
    I would note, however, Madam Chairman, that in the budget 
for the Forest Service for fiscal year 1998, which was passed 
by the House and is being debated over on the Senate floor, the 
investment that is made in programs like stewardship and 
stewardship incentive, which are designed to help increase 
productivity on private nonindustrial forest lands is one tenth 
the investment we are making in producing timber on the 
national forests, which as I have just pointed out have a much 
lower capability to sequester carbon given their lower 
productivity. I would suggest if carbon sequestration were a 
goal, then we want to reverse that investment.
    The programs that we currently have in place, stewardship 
and stewardship incentive, have resulted in tree planting on 
about 135,000 acres of land. Many states, as you know, are 
seeking to fos-

ter a good stewardship and encourage good land management on 
private and industrial lands. The State of Idaho, for example, 
the State of Alaska have forest practices acts. These laws 
continue the efforts to insure that landowners practice 
sustainable forestry. Some states, however, such as Georgia, do 
not in fact have forest practices laws. And they depend on 
market conditions to encourage tree planting. I would suggest 
another policy change that we are not responsible for, but the 
states are responsible for, is policies that would insure and 
encourage tree planting immediately after harvest. In any case, 
the role of the private landowner, however, is influenced by 
state or Federal policy and we believe that private landowners 
have a much greater opportunity to contribute to the carbon 
sequestration goals that this concurrent resolution suggests.
    There are many efforts throughout the Forest Service and 
the Administration which are targeted specifically to address 
the issue of climate change that are beyond the immediate scope 
of this resolution and hearing. However, in summary I want to 
tell you that the Administration is enthusiastically supportive 
of the concerns of the Congress in addressing global climate 
change, however, believe that the resolution is too narrowly 
focused and, in fact, would be counter to the other legal 
mandates we have for management of the national forest.
    I think I will stop there, Madam Chairman, and entertain 
any questions you might have.
    [The prepared statement of Mr. Lyons may be found at end of 
hearing.]
    Mrs. Chenoweth. That is very interesting testimony and I 
did not--I was not able to study it ahead of time because, as 
you say, we did not receive it until last night. But I am a 
little surprised at it and Mr. Lyons, I have to say, you are 
one of the brightest men that I have met, but I am not sure 
that I understand the logic here at all. So I want to take this 
step by step and would ask, even though I know you are running 
between here and the Senate, I would ask that you remain for 
the second panel because I may want to call you back.
    I am not sure given the comments that you just gave us that 
there is a way to reasonably and logically convince the 
Administration to support this concept, however, I am very, 
very surprised at some of the, at some of the statements 
because we seem to be abandoning the tradition set forth by 
Gifford Pinchot and Teddy Roosevelt, the National Forest 
Management Act, and did I, did I understand you to say that you 
feel that the focus of the work by the Forest Service in 
managing land should be working with private landowners on 
their own private land to manage their forests?
    Mr. Lyons. Well what I meant to suggest, Madam Chairman, we 
in fact do do a great deal of work with, with private 
nonindustrial landowners, some with private industrial 
landowners, in helping to promote good stewardship of their 
land through the state and private programs that are run 
through we call a Cooperative Forestry Assistance Authorities. 
If we were to focus intently on carbon sequestration as a goal 
of land stewardship and forest management, that in fact is 
where we would want to focus our efforts because of the 
benefits of capitalizing on the higher productivity of those 
private lands. So if that were the case and that was our sole 
goal, I would suggest that is where we would be making 
investments.
    Mrs. Chenoweth. Let us look at the land mass. I think you 
used the figure 73 percent of our forested land is on 
nonFederal land. Of that 73 percent, 14 percent of the 73 
percent are used for commercial harvest.
    Mr. Lyons. Well, they are industrial lands technically. 
They are owned by the Weyerhaeusers and the Plum Creeks and the 
Boise Cascades.
    Mrs. Chenoweth. Right.
    Mr. Lyons. Some of the nonindustrial land contributes to 
commercial ventures as well and produces wood products. In fact 
a sizable portion.
    Mrs. Chenoweth. So calibrating that out, that would amount 
to about 10.2 percent of our landbase that you are talking 
about. And our Federal lands, our timber dominated Federal 
lands are 27 percent of our landbase. And so we are abandoning 
not only the National Forest Management Act, but twice the 
landbase, and the landbase that is primarily concentrated in 
the Northwest, a whole sector of our country.
    Mr. Lyons. I want to make sure we get the numbers right so, 
so we can start from the same bases. Of the entire United 
States, the forest landbase in the United States, 73 percent is 
in private ownership.
    Mrs. Chenoweth. Right.
    Mr. Lyons. OK, so really three quarters of our forest are 
in private ownership. Of the remaining forest land in the 
United States, which is in public management, 17 percent is 
administered by the Forest Service. So we have 17 percent of 
the 27 percent that remains. So we have a relatively small 
slice of the pie in terms of the total forest landbase that we 
administer. The most dominate share, and I wish I had a pie 
chart that I had yesterday to show you, is in private 
ownership.
    Mrs. Chenoweth. I do not think it quite comes out that way 
but I will review your testimony.
    Mr. Lyons. Well it is not true in Idaho. I will grant you 
that.
    Mrs. Chenoweth. And many of our Northwestern states. But it 
is my understanding that President Clinton, as said in his 
speech last Tuesday, September 9th, that ``we could reduce 
global warming pollution by 20 percent tomorrow with technology 
that is already available at no cost, if we would just change 
the way we do things.'' Does the Clinton Administration 
consider managing our national forests to maximize reductions 
of carbon dioxide in the atmosphere to be a ``technology that 
is already available at no cost if we just change the way we do 
things.''
    Mr. Lyons. Well, I would suggest, Madam Chairman, that we 
are seeking to manage the national forests so as to achieve 
that as one of many, many goals and objectives. We are managing 
those goals to achieve the goals that you cited in the 
quotation from Breaking New Ground, to assure the production of 
crops as Pinchot referred to them, and other goods and services 
that emanate from the national forests on a sustainable basis. 
Carbon sequestration is one element of many.
    Mrs. Chenoweth. Neil Sampson wrote in Forest and Wood 
Products Role in Carbon Sequestration, that ``if our object is 
to increase carbon storage over time, however, then harvest and 
replanting becomes the best option.'' Do you not agree with 
that statement?
    Mr. Lyons. I agree totally, but the key there is where do 
you make that investment? Where do you harvest? And where do 
you seek reforestation? And my point is simply this. With the 
productivity of private lands being so much greater than the 
productivity of public forest lands, that is where you are 
going to make that investment.
    Mrs. Chenoweth. And it appears that your plans are then to 
pretty well shut down the Northwest.
    Mr. Lyons. No, I would not say----
    Mrs. Chenoweth. Let me finish my question.
    Mr. Lyons. OK.
    Mrs. Chenoweth. The Forest Service trust funds are nearly 
gone. A GAO study has just come in that the press just reported 
on that the Forest Service is near bankrupt in its trust funds. 
We are having to lay off employees up in--large numbers of 
employees up in the Northwest in various regions. It is a 
desperate situation up there. We have the Forest Service now 
asking for fees for services that were there for the people. I 
mean the argument over the last few years have been these lands 
belong to the people and yet we are charging people now to 
simply go in and gaze at these lands. And so we are 
transferring the ability of the Forest Service to generate 
income from the trust funds to now be for access in camp 
grounds, on cabins, in just our natural and national forests. 
It seems to be a great departure from the National Forest 
Management Act.
    And while I am personally concerned and I know the Congress 
is that the Forest Service does not go bankrupt and does not 
break both its management and economically, we have got to be 
able to manage the forests not only economically for the best 
return, but for the best return in the atmosphere, and that 
does not mean just on private ground. It means in a whole 
segment in the Northwest. You know, the Forest Service has gone 
from harvesting around 12 billion board feet of timber each 
year to well below 4 billion board feet. From 12 billion to 
below 4 billion. And that--therein lies the problem. That is 
the picture. Is this trend beneficial to the forest's ability 
to sequester carbon, when we, as Neil Sampson has said in his, 
in his paper would--very, very well done--that this idea of 
reducing harvesting and replanting with good healthy trees wars 
against what we are trying to achieve in the balance of 
oxygenation and carbon dioxide sequestration. Do you agree with 
Mr. Sampson and that statement?
    Mr. Lyons. As, as I said, I agree with Mr. Sampson that one 
way to increase carbon sequestration is through harvest 
replanting of productive sites. And I would suggest that if you 
ask Neil--I will let you ask Neil, I do not know if he is going 
to testify today or not--that he would suggest that focusing on 
the highly productive sites would be, would be the most 
productive way to go.
    You mentioned the point of going bankrupt. I would suggest 
this, if you look at the unit cost of production of timber on 
the national forest as opposed to the unit cost of producing 
the same amount of timber from private industrial and 
nonindustrial lands, I think you would quickly decide if you 
were responsible for the entire forest landscape, you would not 
be investing a lot of money in, in Federal lands to produce 
timber, because the unit costs are astronomical compared to 
that on private lands. We still invest in timber production on 
the national forests for various reasons. To support 
communities, to achieve wildlife habitat improvement, to 
protect watersheds, to achieve other goals.
    You mention Neil Sampson's excellent work on this issue of 
carbon sequestration. Neil points out, for example, that forest 
fires emit enormous amounts of carbon and can cause tremendous 
harm over time. The policies we have adopted to reduce fuel 
loads, to increase thinning and to restore fire--to fire 
adapted ecosystems in the long term will help reduce wildfires 
and the emissions of high amounts of carbons. So I think that 
is a beneficial outcome from what we do.
    Neil also points out in the same paper, though I want to 
mention, that the practice of clear cut harvesting attracts 
negative public reaction for various reasons, as he suggests. 
Then he goes on to talk about the fact that the Forest Service 
has declared a new policy minimizing the use of clear cutting 
as a harvest method wherever other methods are available. In 
fact that policy was adopted during the Bush era, not the 
Clinton era. But Neil points out, ``this should be a positive 
change in terms of carbon sinks and the effects of forest 
harvest upon them.''
    My point is simply this, there are a lot of factors that 
come, come into play. Changes in management practices can help 
improve the role the national forest can play in carbon 
sequestration. But if as the Concurrent Resolution suggests, we 
should focus solely on as a primary objective, trying to 
improve carbon sequestration, we do not want to focus on 
increasing timber harvest on the national forest. We want to 
focus on increasing land stewardship on 75 percent of the 
landbase that is forested and in addition, converting marginal 
lands to forested lands where trees can grow and can begin to 
accumulate carbon as other forests do.
    Mrs. Chenoweth. I am very--I guess I did not believe that 
you would say that. I guess that it has taken me a long time to 
realize that there has been a paradigm shift of emphasis in the 
Forest Service from that of good stewardship management in the 
Northwest to, as you say, of being of assistance to the private 
landowners. I hope you are not saying that the Forest Service 
has become an assistant to big business at the expense of--and 
no doubt about it, I mean we have huge companies here in the 
East that are, that are doing very, very well and they are 
responding to market demand, and their forests are giving off 
great amounts of oxygen and they are maximizing the carbon 
sequestration because of the way they manage their forests. But 
I submit to you, Mr. Secretary, we are, we are abandoning an 
entire area in this United States that is quickly growing out 
of, out of balance as far as our ability to reduce fuel loads, 
to limit the potential of carbon being released into the 
atmosphere because of fire, because of unit costs. I do not 
think that is a good argument.
    I realize you are making me very testy and this is the 
first time that this has happened since I have been Chairman, 
but I am ut-

terly shocked at what I am hearing. And I hope that you will 
review this or, or submit more detail into your testimony so 
that we come closer in our thinking as far as, No. 1, your 
appearance of abandoning National Forest Management Act, and 
the appearance of abandoning an entire area in management in 
the Northwest and in California.
    Mr. Lyons. If I could, Madam Chairman, I want to, I want to 
make clear we are certainly not abandoning our stewardship 
role. I infer from your statement though that you equate 
stewardship with timber harvesting and harvesting levels. The 
fact that harvest levels have declined or offer levels have 
declined from 12 billion board feet in some a decade or so ago, 
to 4 equates with abandonment of stewardship, that is not the 
case. I want to be abundantly clear about that. Stewardship 
involves harvesting trees, replanting new trees, restoring 
water sheds, dealing with the road maintenance and 
deterioration problems that we have on the national forests, 
providing high quality recreation, good range land improvement, 
et cetera, et cetera. So that is all part of our stewardship 
mission as required in the law. And I certainly do not mean to 
create friction between the good working relationship we have.
    I simply want to point out that I think, I think it is 
wrong to manage the national forest for any one purpose. I 
think that is consistent with your opening statement. It is 
wrong to manage the national forest simply for carbon 
sequestration. If we want to manage forests for carbon 
sequestration, we would invest elsewhere. We would not invest 
in the national forests. We want to manage the national forest 
for the wide range of goods and services they can provide on a 
sustainable basis to help people. People in Idaho and 
Washington and Oregon and California, and in the East as well. 
And that is really our stewardship role and that is where we 
are headed.
    This Concurrent Resolution would change our priorities and 
have us focus on carbon sequestration. I think the implication 
is that we would harvest more. That is really the wrong way to 
approach our stewardship role, and it is really the wrong way 
to achieve the carbon sequestration goals that are suggested. 
If the Concurrent Resolution suggested that forests nationwide 
should be managed to improve carbon sequestration, well then we 
might have a focus on which we could discuss. Because as I 
suggested private lands offer tremendous opportunity to capture 
more carbon through their productive use.
    Mrs. Chenoweth. H.C.R. 151 expresses the sense of the 
Congress that the U.S. should manage its public domain national 
forest to maximize the reduction of carbon among other 
objectives and that was made very clear in my opening statement 
and in the content of the resolution. The resolution does not 
require that carbon sequestration should be given a higher 
priority while at the same time meeting all Federal land 
management and environmental laws.
    My question is could the objectives of this resolution be 
achieved while at the same time following all of our other 
environmental laws? I think it could. And I totally agree with 
you about the fact that we should not manage the forest for one 
single purpose, whether it be a theological purpose, whether it 
be for carbon sequestration, whether it be simply for 
harvesting.
    But as I have mentioned before from their chair and in 
letters to you, we are in a desperate situation out in the 
Northwest. And I think that, that the shock that was registered 
by our leadership team who came out and viewed the forest in 
the Northwest, is evidence of the fact that we really, really 
need some attention paid to our forests in the Northwest for 
the sake of forest health.
    So let me just finish with one more question. Some of the 
groups have advocated no commercial harvest of timber from our 
national forest. They seem to be winning the battle today over 
the logic whether it is based on a balance in our forest, 
whether it is based on fuel reduction, whether it is based on 
carbon sequestration, whatever it may be. They seem to be 
winning the battle that we should have absolutely no commercial 
harvest of timber on our national forest. Now we have a very 
minimum amount now and we are not keeping up with the need just 
for forest health. Do you support this policy for the 
Northwest?
    Mr. Lyons. Well, Madam Chairman, the Administration does 
not support the elimination of commercial timber harvesting on 
the national forests.
    Mrs. Chenoweth. What implication would this policy have on 
our national forest's ability to sequester carbon if we, if we 
simply did not harvest anything?
    Mr. Lyons. Well obviously it would have some impact in 
those areas where productivity would, would be lost. And would 
also hamper our ability to make forest improvements for--
purposes or to reduce fuel loads and therefore, reduce the risk 
of wildfire, et cetera. And that is one of the reasons we 
continue to invest in commercial and noncommercial vegetative 
management on the national forests.
    Mrs. Chenoweth. Mr. Secretary, I am going to let you off 
the hook for right now. I do want to personally study your 
testimony and I will be submitting questions to you personally. 
I would like for you to stay, if you could. We only have three 
more witnesses.
    I do want to say that I very, very much appreciate the book 
about Gifford Pinchot that you sent and I dove right into it. I 
also want to say that I have most of the Presidential papers of 
Teddy Roosevelt in my office, and I am going to copy some of 
them and send them to you. He gets into addressing the issue 
about deforestation in China and how the natural resources were 
abused because there was massive clear cutting and it created a 
difference in the entire climate because of the lack of 
aspiration and because it changed the entire complexion of the 
soils because of great erosion. We have heard for a long time 
of decertification. It is not entirely fictional. It is not 
going to happen in the Northwest. But we are getting close to a 
point where there is a massive area that is not responding well 
and healthily in the Northwest and I am greatly concerned about 
this. And I think Teddy Roosevelt really hit the nail on the 
head. I think he had great, great wisdom and great vision. So 
if you do not mind, I would like to share that with you and 
would be very interested in your personal opinion on that.
    Mr. Lyons. I greatly appreciate that.
    Mrs. Chenoweth. So thank you very much, Mr. Secretary.
    Mr. Lyons. Thank you.
    Mrs. Chenoweth. And I appreciate your time.
    The Chair now recognizes the second panel. Dr. John Perez-
Garcia, Associate Professor at University of Washington, 
Seattle, Washington. Dr. Chad Oliver, Professor at University 
of Washington, College of Forestry Resources in Seattle, 
Washington, and Gordon Ross, County Commissioner Coos County, 
Coquille, Oregon.
    Gentlemen, I am very pleased to welcome you to the hearing 
and very pleased to have your addition to the hearing record, 
which will be very valuable to us in the future. And before we 
get started with the testimony, I wonder if you could please 
rise and take the oath.
    [Witnesses sworn]
    Mrs. Chenoweth. I have just been advised that we do have a 
vote and it is at the second bell it looks like, so I am going 
to have run and vote. And I think it is a procedural vote, is 
it not, Kathy? Procedural vote. And so I will cast that vote 
and I will be right back. So we will just temporarily adjourn.
    [Recess]
    Mrs. Chenoweth. The hearing on H.C.R. 151 will resume. We 
look forward to the testimony from Dr. Garcia. Doctor.

STATEMENT OF JOHN M. PEREZ-GARCIA, ASSOCIATE PROFESSOR, COLLEGE 
         OF FOREST RESOURCES, UNIVERSITY OF WASHINGTON

    Dr. Perez-Garcia. Thank you, Madam Chairman. What I would 
like to do today is summarize the findings of our July 7th, 
paper presented to the Committee on how forests can help reduce 
carbon dioxide emissions to the atmosphere. There are four 
points that I would like to make today; three of them relate to 
carbon dioxide, and one, the last point I would like to make, 
relates to tradeoffs, which I think is something that should be 
discussed here.
    Carbon dioxide is reduced by forest growth. I think 
everyone understands this statement and accepts it. There are 
two points that you need to realize with this statement though. 
One, there is a limit to the amount of carbon that a forest can 
capture, remove from the atmosphere and save as biomass. 
Second, these forests are subject to disturbance so they can 
quickly return that carbon to the atmosphere.
    The importance of the limit to the amount of carbon that 
forests can sequester is a technological one. Carbon storage 
can further be increased by transferring that carbon out of the 
forest into products. And I think there is general agreement in 
this statement also. The point to recognize here though is that 
there is a limit to the amount of carbon that can be 
transferred from forest to products. Depending on the type of 
management, the type of forest and the product that is 
associated with them, this increase in the capacity of forest 
to sequester carbon can range from 10 to 66 percent according 
to several studies.
    The way forest management increases carbon sequestration is 
to concentrate growth in timber that is utilizable. What forest 
management is doing is concentrating the growth, the carbon, 
into something that we can take out of the forest and preserve 
as product pools.
    The forest type affects carbon storage through its 
different growth rates, different regions and different species 
composition. Forests across the U.S. grow differently and 
therefore, sequester carbon at different rates.
    Wood products affect carbon storage since they hold carbon 
captured by the forest in terrestrial form and delay its return 
to the atmosphere. Short-lived wood products return carbon 
faster than long-lived wood products. So things like paper 
would return carbon faster to the atmosphere than the solid 
wood products like lumber. Wood products also save terrestrial 
carbon when they displace fossil fuel energy through either 
direct substitution by use of biofuels or indirect substitution 
through manufacturing process energy.
    And this is the third point that I would like to bring out: 
Forest products saves fossil fuel carbon. And that is perhaps 
one of the more important things I would like to leave with you 
today. Wood products used in construction, furniture and other 
wood product uses extend the storage capacity of forests by 
physically transferring the biomass carbon to a product carbon 
pool. But there is also a savings in fossil fuel carbon 
associated with the use of products. The savings occur because 
wood products use less manufacturing energy derived from fossil 
fuels than it's competing non-wood products.
    The effect on atmospheric carbon of fossil fuels displaced 
by wood products may be large. Studies that I and others have 
conducted estimate the effect of less wood products used 
through national harvest reductions to be around 19 million 
metric tons. This effect alone is larger than the estimated 
U.S. average annual increase in carbon dioxide emissions from 
1990 to 1995, which is about 14 million metric tons. The 14 
million number is important because that is really a target set 
by the President's Climate Change Plan. This also is important 
because it says something different than what the Secretary was 
stating with regard to the impact national forests have on 
atmospheric carbon.
    The last point I would like to make is about tradeoffs. By 
far the most effective way to keep carbon out of the atmosphere 
is to use wood products and save fossil fuel energy. I would 
like to reiterate that point. Planting and growing more forests 
can take carbon out of the atmosphere and can be effective as 
long as these plantations do not substitute more productive 
plantations for carbon sequestration. Large scale planting 
programs have a limit to their potential to capture atmospheric 
carbon and may even reduce long term carbon storage of forest 
if the use of wood is not increasing at the same rate as these 
plantings.
    As an example of tradeoffs, take the reduction of harvest 
from Federal forest which has led to greater carbon admissions 
nationally and internationally. Other forest areas within and 
outside of the U.S. increased their harvest to replace a 
portion of the lost Federal timber harvest. These areas are 
less productive than those they replaced, contributing to 
greater amounts of carbon emission through less product 
recovery and greater acreage required to substitute the lost 
harvest. The amount of harvest reduction not made up by other 
producers has led to greater use of non-wood substitute 
products. This indirect substitution effect through the use of 
more fossil fuel-based manufacturing energy has further 
increased car-

bon emissions associated with Federal timber harvest. The 
Federal policy to preserve habitat illustrates unintended 
consequences of single issue policies such as carbon emissions.
    In summary, there are three points that I would like for 
the Committee to remember. One, forest sequestered carbon; 
second, wood products act as a reservoir of forest carbon 
extending the forest's capacity to move carbon out of the 
atmosphere; and thirdly, by far the most effective way to keep 
carbon out of the atmosphere is to use wood products and save 
fossil fuels. Thank you, Madam Chairman.
    [The prepared statement of Dr. Perez-Garcia may be found at 
end of hearing.]
    Mrs. Chenoweth. Thank you, Dr. Garcia. That was very 
interesting, very technical, but very good and very 
interesting.
    Dr. Oliver, welcome, it is good to see you again. Dr. Chad 
Oliver, Professor at University of Washington, College of 
Forest Resources.

   STATEMENT OF CHADWICK D. OLIVER, PROFESSOR, UNIVERSITY OF 
            WASHINGTON, COLLEGE OF FOREST RESOURCES

    Dr. Oliver. Thank you very much, Madam Chairman. I would 
like to build on what Dr. Perez-Garcia said and maybe I can 
clarify some of the apparent confusion with what Mr. Lyons had 
said. Mr. Lyons was basing the idea of sequestering carbon by 
growing the forest or keeping the wood in the forest and not 
harvesting it on the paper of Harmon, et al, of 1990. That 
paper shows that forests basically, if you keep the forests and 
do not harvest it, you will store a lot of carbon. A paper of 
1993 by Kershaw, et al, in the Journal of Sustainable Forestry, 
showed that that is only true if by not using the wood you do 
not use more polluting substitute products, such as steel, 
aluminum, brick and concrete. If, however, you do use--do not 
harvest the forest but instead use these--utilize these 
substitute products, you add far more carbon dioxide to the 
atmosphere than if you used--if you had harvested the forest 
and used those wood products. The interesting thing there is 
then that actual harvest of the forest and utilizing of it 
actually reduces the total carbon dioxide addition to the 
atmosphere by saving on the use of fossil fuels, because you do 
not use substitute products.
    The second point there was a bit confusing is that actually 
you could use more of the wood to substitute for these more 
polluting products if you grow the forests on--for high quality 
timber as opposed to short rotation type of wood, timber 
management, thinning the forest, grow into high quality wood 
which would substitute for other beams. Therefore, rather than 
saying the contrast is between preservation on the one hand and 
short rotation on the other. Actually you are better, 
apparently, you are better savings of carbon dioxide would be 
longer rotation, high quality. Which, incidentally, would also 
provide many of the habitat values from the forest before it is 
harvested.
    Now planting and growing more forests on presently marginal 
agricultural lands will temporarily reduce your carbon dioxide 
as the forest is growing. Once it is ready to harvest, as Dr. 
Perez-Garcia pointed out, unless you have an expanding use of 
wood, that wood will just substitute for wood from another 
place and you will, actually calculations will show you will 
not get an increase--a re-

duction in carbon dioxide but may actually be adding more 
carbon dioxide to the atmosphere. The net results--the net 
point here is that wood use and expanded wood use where it 
substitutes for products that need more fossil fuel is the best 
way to keep carbon dioxide out of the atmosphere by keeping the 
fossil fuels in the ground. That is something that the Harmon, 
et al, paper that Mr. Lyons referred to did not consider, but 
subsequent papers have considered.
    Now I want to--this brings, brings up the whole issue of 
tradeoffs. On the one hand, some people want reserves such as 
national forests, and on the other hand, other people want to 
conserve carbon dioxide, which is best done, by far the best 
way is by utilizing wood to substitute for alternative 
products. Now the problem is of single issue advocacy. If we 
simply get into we must have absolute carbon sequestration, we 
must have absolute reserves, then you end up with a polarized 
position. What really needs to be done as a resolution is 
decide how much of each of these values we value, and is there 
a way to provide both of these to certain extents.
    As a tradeoff, for example, we might not want to ever 
harvest the Olympic National Park. But just accept that that is 
a tradeoff that we are going to give up a certain amount of 
possible sequestration, but then how much other area do you 
also set aside recognizing that the tradeoff is more carbon 
added to the atmosphere and the resolution that you put forward 
here points out this carbon dioxide reduction among many other 
values gets to that tradeoff consideration. Now, on the other 
hand, you can decide there is certain areas you are willing to 
give up the carbon sequestration by setting aside as national 
parks. There are ways of supplementing those with other areas 
where you could manage by doing such things as thinning or 
selection cutting to create some of that habitat to a large 
extent, but at the same time, harvesting it providing the high 
quality wood that would also lead to your carbon sequestration. 
So that you could look at a mixture of these, but it is a 
matter of tradeoffs among the different issues.
    Basically we need to look at it from the point of view of 
forest management is not necessarily managing all forests for a 
single way or a single value. The decision is how much forests 
in each region of the world do we manage and in which way in 
order to provide the greatest balance of values recognizing if 
we set aside more forests or do not manage them, or do not 
harvest them in one area, we are increasing the CO<INF>2</INF> 
by the use of substitute products as well as by harvesting 
forests elsewhere. I hope that is helpful.
    [The prepared statement of Dr. Oliver may be found at end 
of hearing.]
    Mrs. Chenoweth. It is Dr. Oliver. Do you have anything else 
you would like to add in your testimony?
    Dr. Oliver. I believe everything else is in here. I will be 
glad to respond to questions.
    Mrs. Chenoweth. And Dr. Perez-Garcia, do you have anything 
else you would like to add in testimony?
    Dr. Perez-Garcia. No, I believe I have said everything that 
I wanted to say and I will also be happy to answer any 
questions that you might have.
    Mrs. Chenoweth. Thank you, and I do have some. Mr. Gordon 
Ross, I have been looking forward to your testimony. Please 
proceed.

  STATEMENT OF GORDON ROSS, COUNTY COMMISSIONER, COOS COUNTY, 
                             OREGON

    Mr. Ross. Madam Chairman, if you will forgive me, I would 
like to also quote from the greatest because I remember a quote 
from Gifford Pinchot after spending three years on the Olympic 
Peninsula said that he had not seen a single Douglas fir 
seedling under the canopy nor an opening that was not filled 
with them, and my remarks have to be confined to the Douglas 
fir region because that is the only region I am familiar with. 
I am a local historian as well as county commissioner in Coos 
County. I have been giving discussions on local history and the 
development of transportation, how it effects the way we live, 
for about 30 years now and the matter of, of carbon going into 
the atmosphere always becomes a part of that if we look at the 
different energy sources as we use up our energy savings 
account.
    In 1976, I thought this was going to resolve itself when 
the first gas crunch came and the gentleman, Bill Bradbury, and 
myself, Bill became President of the Senate years later, in 
Oregon Senate, we put on a little half hour television program 
called, ``We're Going Back to Horses Because We're Running Out 
of Dinosaurs.'' But my predictions are not any better than my 
authority. As you notice, maybe I have no credentials and my 
predictions do not come true either.
    In 1991, I gave testimony before the Endangered Species 
Committee in Portland, Oregon, and I put this in the record all 
22 pages of it. No pride in authorship here at all. But it 
makes good evening reading. Judge Harvey Switzer took it home 
and read it and came back for a second day of testimony, taking 
it a paragraph at a time, and finally it was all admitted into 
the record over the objections Sierra Club Legal Defense Fund. 
But I would just turn to page four where we deal with four 
myths. A myth in Oregon about forestry is something that is 
believed inside of Portland or some parts of Eugene. Myth 
fourth was that setting aside old growth timber will provide 
future generations with clean air. And the response is the 
amount of oxygen a forest releases into the atmosphere, the 
amount of carbon dioxide a forest takes into its--takes in, is 
in direct proportion to the amount of wood fiber produced. When 
a forest is mature it has no net gain of wood fiber. There is 
no longer a net benefit to the atmosphere. It is oxidizing as 
fast as it is growing.
    In Oregon we can grow 50,000 board feet per acre per year--
excuse me, 50,000 board feet in 60 years. And this is what we 
are doing on our Coos County forest. I have to qualify that. 
And in the past few years, that was `89 to `91, the average old 
growth sale on our Federal lands produced 42,000 board feet per 
acre. A net loss.
    I have also given you two pages from technical bulletin No. 
201, U.S. Department of Agriculture showing the growth rates of 
Douglas fir and the mean advantage or the mean average volume 
increase. On Table 16 is described below and about a 90 year, a 
90-year harvesting cycle would maximize growth and therefore, 
maximize both timber production and the carbon sequestration.
    I have given you a color graph and I want to call your 
attention to the graph at the bottom of this color page, it 
shows the U.S. growth and removals in billions cubic feet per 
year. Notice in 1920 our lands were only producing about 6 
billion cubic feet per year while our harvest was a challenge 
harvest of over twice that amount. By harvesting and replanting 
each year, we see that the growth increase. Until now we are 
harvesting less than is growing, and of course, in the 
Northwest now on the approximately 25 million acres in the 
Douglas fir region, that has been reduced substantially.
    If half of the Douglas fir region, under Federal ownership 
were in mature status, then it would be breathing with just one 
lung, you might say. This half of it would be, would be not 
giving any net benefit to oxygen released in the atmosphere or 
to carbon storage. Under the present record of decision, only 
about 10 percent is going to continue in harvest management. 
Eventually 90 percent will be in old growth. Some call this 
good forest health. But if it is only breathing with 10 percent 
of its lung capacity, I think a doctor would call it acute 
emphysema.
    I want to conclude by saying that I have also given you a 
copy of something that I authored here called How Much Old 
Growth Can We Save. In the Northwest, all of our stands of 
Douglas fir timber are either the result of catastrophic fire, 
or timber harvest. And if we should listen to history, we 
should certainly listen to it now. We cannot save those stands 
from ultimate harvest. Either if we do not harvest them, nature 
will. And nature will put all of the carbon dioxide, all of the 
carbon back into the atmosphere through the initial burning and 
through the subsequent deterioration afterwards, and she will 
not distribute the receipts very well either. Thank you.
    [The prepared statement of Mr. Ross and attachments thereto 
may be found at end of hearing.]
    Mrs. Chenoweth. Thank you, very much. I do have some 
questions here for Dr. Perez-Garcia. I have questions for all 
of you, but Dr. Perez-Garcia, what is the impact to the 
atmosphere to moving to a less active timber program?
    Dr. Perez-Garcia. In terms of carbon dioxide?
    Mrs. Chenoweth. Yes.
    Dr. Perez-Garcia. It probably would increase the emissions 
of carbon to the atmosphere.
    Mrs. Chenoweth. And the overall greenhouse gasses effect.
    Dr. Perez-Garcia. Well carbon dioxide is one of the 
greenhouse gasses, so if you increase that gas, it would 
probably increase greenhouse gasses. But I am less confident in 
that statement than knowing that it will increase carbon 
emissions to the atmosphere.
    Mrs. Chenoweth. For the record, would you please tell us 
what are the effects of catastrophic wildfires on air quality 
and on carbon sequestration.
    Dr. Perez-Garcia. Like I said in my statement, forest are 
subject to disturbances, and one of these disturbances would be 
wildfires. As a matter of fact those wildfires release carbon 
from its terrestrial form into carbon in its atmospheric form, 
which is carbon dioxide. So it would increase carbon dioxide 
emissions.
    Mrs. Chenoweth. Can you tell us what has been the effect of 
stopping the harvest of wood from our national forests on 
global additions of greenhouse gases?
    Dr. Perez-Garcia. There have been two effects to this and 
this is documented in a study conducted under EPA sponsorship. 
One effect is a national effect and one is an international 
effect. Nationally, the effect of reduced harvest, Federal 
harvest, has been to increase carbon dioxide emissions and to 
decrease the absorption of carbon. The way that occurs is 
through substitution of regions which produced the timber that 
is not produced by the Federal timber, i.e., the South will 
produce more, but it is not as productive in sequestering 
carbon as the Pacific Northwest. The international effect is 
similar and it also increased carbon emissions internationally. 
And the reason there was that some of the timber replacement 
for the Federal timber comes from countries like Chile, New 
Zealand, the former Soviet Union, which are less productive in 
sequestering carbon than the Pacific Northwest.
    Mrs. Chenoweth. That is interesting. We have gone from a 
harvest of around 12 billion board feet to below 4 billion 
board feet of timber. What effect has this had on the global 
greenhouse gases?
    Dr. Perez-Garcia. It has been to increase carbon emissions.
    Mrs. Chenoweth. Dr. Perez-Garcia, I will have other 
questions for you that I will submit in writing. Is that all 
right with you?
    Dr. Perez-Garcia. Yes.
    Mrs. Chenoweth. And we would like to be able to complete 
the circle of getting the questions to you and the answers 
within three weeks.
    Dr. Perez-Garcia. That will be fine.
    Mrs. Chenoweth. Dr. Oliver, can old growth be made a part 
of a forestry management scheme that means to maximize 
reduction of the greenhouse gases?
    Dr. Oliver. Well, as I mentioned earlier, it is a question 
of tradeoffs on if you set aside an area of old growth and 
leave it and do not harvest it, then you force either wood to 
be harvested in other areas or what is happening more and more 
is you force the use of substitute products, such as steel 
studs in homes, which increase the amount of carbon dioxide to 
the atmosphere. On the other hand, it is a question of 
tradeoffs. How much of this old growth are you willing to set 
up in exchange for having a little bit more carbon dioxide into 
the atmosphere for these other uses. There are other ways of 
possibly managing by managing on long rotation, selective cut, 
and creating old growth-like conditions, and at some time 
harvesting the trees, or as the area blows down, salvaging the 
trees so that they can be used in another area be used in this 
old growth condition. I want to point out just as a caveat, 
that if you are concerned about biodiversity, you would not 
want all of your forest in this old growth condition, because 
not all species can live there. But it is a question of 
tradeoffs in that leaving the forest there and not doing 
anything with it but using substitute products, as we are 
increasingly doing, is basically adding more carbon dioxide to 
the atmosphere.
    Mrs. Chenoweth. From your testimony, you point out that 
greater utilization of higher grade wood is one of the best 
ways to maximize reduction of greenhouse gases. I would like 
you to elaborate on this if you would for us.
    Dr. Oliver. Some of the high grade timbers have both some 
of the more valuable properties for structural uses and because 
they are strong, knot-free, et cetera, they can be used in 
lesser weights and therefore, lesser amounts in things such as 
high quality construction. These can then be substituted for 
such things as steel reinforced concrete, et cetera. And if 
that is done, then you save you from having to produce the 
concrete and steel, and therefore, you keep fossil fuels from 
being used, and you keep the carbon in the ground instead of 
the atmosphere. So high quality wood seems to have a very 
important effect in keeping the carbon in the ground.
    Mrs. Chenoweth. And another thing, too, is these 
alternative materials are all nonrenewable, are they not?
    Dr. Oliver. Yes, they are nonrenewable. Actually, there is 
another point. The higher quality wood often means more 
sequestration in the forest before the time they are harvested.
    Mrs. Chenoweth. The Forest Service has gone from harvesting 
about 12 billion board feet down to about 4 billion board feet. 
Is this trend beneficial to the forest's ability to sequester 
the carbon?
    Dr. Oliver. Actually, I would like to, if you do not mind 
looking at page eight of the testimony, figure five, it gets to 
this issue. And I would like for Garcia to explain it in 
detail. Do you have this figure before you? I think it is an 
important figure.
    Mrs. Chenoweth. Please proceed.
    Dr. Oliver. Excuse me. Do you have it--OK. Basically what 
it is is the MMTCE is million metrictons of carbon equivalent 
per year. Just shows the total amount of carbon. Just think of 
that as carbon dioxide. And then John will proceed with showing 
the effects both of the target reduction in carbon dioxide and 
the calculated effects of stopping the harvesting in the 
national forest. Looked at it, calculating at different levels. 
John could you proceed? Dr. Perez-Garcia.
    Dr. Perez-Garcia. Sure, the first bar at the top of the 
graph where it says fossil fuel consumption has the number 14. 
I always like to put things into perspective and so you must 
think of the 14 as the perspective that you want to look at. 
The 14 comes from the annual average increase in carbon dioxide 
emissions from 1990 to 1995, i.e., it is a target that some 
have proposed to reach in terms of reducing carbon emission. So 
that the 14 is really a baseline number, OK?
    When we look at the second bar below that, we had fossil 
fuel consumption carbon emission plus the habitat preservation 
in the Pacific Northwest. These activities have increased 
carbon dioxide by 20 million metric tons of carbon equivalent. 
OK, so 14 of those is from the fossil fuel target, plus six 
from the habitat preservation program. So now our target really 
is not 14, it is 20. OK?
    Now if we add in substitution of non-wood products, i.e., 
the fossil fuel used to produced non-wood products that we lost 
with the reduced Federal harvest, we add another 19 million 
metric tons to that bar. So now our target is really 39 rather 
than 14. And then there are two levels of wildfires. There is 
an estimated low level and an estimated high level of fires and 
these activities increase the carbon emissions from 50 million 
metric tons of carbon equivalent, to I forget what the big 
number is, close to 80 million metric tons of carbon 
equivalent. And that number you might think of as our target 
that we need to reach.
    The whole idea here was to show how some of the previous 
single-issue policies that were implemented affect carbon 
dioxide emissions, and that these effects can be very large.
    Dr. Oliver. So instead of the initial target of trying to 
reduce carbon dioxide emission by 14 million metric tons, we 
have actually increased it so that to get to the base level, we 
would have to reduce it between 54 and 75 million metric tons, 
cause we have added that much more carbon by these policies, 
both not harvesting and the fire problem that we have.
    Mrs. Chenoweth. This is very interesting. Can you tell me 
what effect salvage logging would have on CO<INF>2</INF>, Dr. 
Oliver or Dr. Perez-Garcia?
    Dr. Perez-Garcia. I would expect it to transfer the carbon 
that is on the ground into products. If those products are 
long-lived products, i.e., they are lumber, then that carbon 
remains in lumber for a period longer than it would have been 
on the ground.
    Mrs. Chenoweth. I see.
    Dr. Perez-Garcia. And there is also the substitution effect 
with the fossil fuels. So the salvage logging would reduce the 
amount of carbon entering the atmosphere. If you leave it on 
the ground, it will decompose and go into the atmosphere.
    Dr. Oliver. If you would have the effects of if you did not 
salvage log, then instead of using the wood products, there is 
a high change you would use substitute products, which would 
add more carbon to the atmosphere. If you had fires or if the 
salvage was after fires, if you had reburns, and you would add 
more carbon to the atmosphere. If you had salvaged it and you 
had thinned it, then you may even be growing higher quality 
products on the remaining trees, which can further reduce the 
carbon dioxide on the atmosphere.
    Mrs. Chenoweth. Very interesting. I am pleased to recognize 
Mr. Schaffer from Colorado has joined us. I would like to 
proceed with questions for Mr. Ross right now.
    Mr. Ross, I want to let you know that I think Coos County 
is just about the most beautiful part of the world there is. My 
sister lived in Coos Bay and I always enjoyed visiting your 
corner of the world. I understand that that specific coast area 
there is the most highly productive--has the most highly 
productive capability for growing and harvesting trees than any 
place else in the world. Is that true?
    Mr. Ross. Madam Chairman, I was actually called to task for 
making that statement before Harvey Switzer, Federal 
Magistrate, because I had not been everywhere in the world. I 
thank you for your compliments about Coos County. We had a 
person come there a few years ago to set about to stop 
harvesting timber in the County and he said that he was from 
California, and we had the most beautiful place in the world 
and he was here to save it. And I said, Dr. Miller, you are 
late. It burned off in 1868, we have logged it twice since 
then.
    Mrs. Chenoweth. You are right. Do you believe the harvest 
of timber should be the primary use of the national forests?
    Mr. Ross. Madam Chair, if I may, I certainly believe it 
should be one of the primary uses. When it is dealt as one of 
the primary uses, using best management practices, of course, 
and latest technology, we can preserve all the other amenities. 
Furthermore, we get all the other amenities free. You alluded 
to this earlier today. In Coos County, I have constituents now 
that are having to pay $3 to go look at the Pacific Ocean 
because the Forest Service is out with their tin cup trying to 
stay alive with no harvest and no means of support. I certainly 
think that when you maximize timber harvest, you maximize the 
ability for, or the benefit to the atmosphere, plus you get 
jobs, you get county revenues for public health and safety, and 
you get materials for people to build houses with for Americans 
to live in. And it is tragic to what is happening to the 
Douglas fir region. Knowing what I know, what I know is in 
inevitable. My forebears saw the Siuslaw National Forest when 
it was ashes. And that is one of the reasons, and Mr. Lyons is 
absolutely correct, the reason people did not take much of that 
land is because it was not what they wanted. It was not because 
it was not productive. It was because they were agrarian in 
nature, they needed a place to grow food. This was just going 
to grow little trees and it did not have timber on it then.
    That forest is probably one of the most productive forests 
in the world, and I will have to couch that probably now 
because of what I have been told in the past about saying 
things I cannot substantiate. But today under the record of 
decision, there is almost no place on that forest we can hold a 
timber sale because of the intermittent stream buffers, the 
overlap. Sometimes they triplicate in areas. And so the 
productivity of that forest is--it is beautiful. It is 130-
year-old timber on about two thirds of it, one third of it has 
been harvested and is growing. The roads are in. The roads are 
managed and we have mills in the area being dissembled because 
there is nothing there for them to harvest. They cannot harvest 
it.
    Mrs. Chenoweth. I understand the big mill downtown is no 
longer operating.
    Mr. Ross. That is right. Yes.
    Mrs. Chenoweth. What is in there now?
    Mr. Ross. A casino.
    Mrs. Chenoweth. A casino?
    Mr. Ross. Yes.
    Mrs. Chenoweth. Good grief.
    Mr. Ross. And the Coquille Indian tribe has a casino in 
there. It is the only mill in town that is working three shifts 
a day.
    Mrs. Chenoweth. The casino.
    Mr. Ross. It is called the Mill Casino as a matter of fact.
    Mrs. Chenoweth. I am going to ask you one more question and 
then I am going to yield to Mr. Schaffer. How will increasing 
the harvest of timber to increase carbon storage affect our 
salmon runs?
    Mr. Ross. Madam Chair, we have harvested more timber than 
any county in Oregon. Principally because we started earlier. 
We started in 1855. We had the only deep water port on the 
Oregon coast. And we supplied timber to build San Francisco and 
to re-

build it after the fire in 1906. We continue to and for most of 
my lifetime and for decades before my lifetime, we are the 
largest timber shipping port, wood products shipping port in 
the world. And yet we have the highest rate of salmon returns 
on the Oregon coast. We have more Coho salmon return to the 
streams every year in Coos County than all of the rest of the 
coastal counties in Oregon put together. Now this was our 
experience. I had no scientific background for it until this 
year.
    Oregon State University is completing a 10-year study on 
the coastal productivity enhancement program understanding how 
managing our riparian areas effect salmon runs. And it is been 
determined that these are disturbance based ecosystems. The 
large woody debris and the spawning gravel are essential for 
our salmon runs, are a result of disturbances. In the past 
forest fires and flood, but today logging and flood. And this 
work has been done by the same people that drew the lines on 
the FEMAT report and they are telling me that this needs to be 
revisited, that they did not understand this at the time they 
drew the lines. And when they drew the lines, they did not 
consider them to be permanent. Only until watershed assessments 
could be done and you could determine where the timber needed 
to be left on the head walls that might fail. Not so they would 
not fail, but when they did fail, large woody debris would come 
into the proper places in the watershed. And they are telling 
me maybe 10 percent of the watershed could be saved in that 
area and the rest harvested. And we would be doing something 
really meaningful for our aquatic resources.
    So it is--besides the other tragedies of the Northwest 
forest plan, it is exactly wrongheaded when it comes to 
anadromous fisheries. We all thought that these beautiful 
little brooks and shaded areas must be the place that fish 
like. But fish like what comes from disturbances. The large 
woody debris that creates the sheltering areas that salmon need 
to overwinter and oversummer, and the spawning gravel that they 
need. So Madam Chair, I appreciate you asking that question and 
giving me an opportunity to respond to it.
    Mrs. Chenoweth. Thank you, sir. The Chair now recognizes 
the gentleman from Colorado, Mr. Schaffer.
    Mr. Schaffer. Thank you, Madam Chairman. Commissioner, I 
saw one of your bumper stickers. It said, housing----
    Mr. Ross. I made this available. Sometimes I try to make a 
point----
    Mr. Schaffer. Oh, here it is, ``Affordable Housing Begins 
in the Woods.'' What is the story on this?
    Mr. Ross. If I may, is Mr. Lyons still here? I apologize to 
him because I did not send him one. I sent one to Mike Dombeck 
when I read in the Oregonian that he and Mike Dombeck had been 
before a subcommittee in Congress, and I do not hold everybody 
accountable for what I read in the Oregonian either, my 
apologies if this is reported wrong, but they had said that it 
was not the Administration's policy to not harvest timber on 
public lands. They were only reflecting the wishes of the 
people of the United States. So I wrote to Mike, knowing him, 
and I said, Mike, I have always followed whenever I see your 
name, I read it and this is what I wrote, ask the people of the 
United States the right question. And do not ask them while 
they are watching Bambi on television. Ask them when they are 
arranging financing for a new home or when they are at the 
lumber yard, or when the mortgage payment is due or when the 
landlord is collecting the rent. And then ask them the 
question, how much more are you willing to pay for shelter, for 
housing, to not harvest timber on public lands. And that was 
the reason I sent that. And I made it available for your 
Committee also.
    Mr. Schaffer. Thank you. I would also like you to discuss, 
if you would a little bit, just the role of controlled burns 
and fire with respect to forest management form your 
perspective as a county commissioner.
    Mr. Ross. Thank you. For many years we managed our timber 
in Coos County by harvesting, burning, and then replanting. And 
it is certainly an aid in allowing the young seedlings to get a 
jump on the brush that grows so fast on the coast. But fire in 
a natural role in a Douglas fir region is not an option. It is 
very different in the pine area. But in the Douglas fir region, 
things grow so fast, you are not going to reduce the fire 
loading long term by little, frequent, nonintensive burns. The 
Douglas fir region is famous for only the catastrophic events 
that take place after timber reaches maturity. And that 
certainly is not an option, we need to harvest to prevent that 
from happening.
    The real danger in Western Oregon is at the same time we 
are not harvesting, the same time the fuel is building up, we 
are also losing the biggest fire department ever assembled in 
the world. At every foreclosure, at every bankruptcy, at every 
sale held to sell out the equipment that the timber companies 
have had and the logging companies have had, we lose that fire 
department, which is made of the loggers and their water wagons 
and Caterpillars and Lowboys to move the Caterpillars to the 
sites, and fire fighting equipment, and manpower and just plain 
know-how. And we are losing that fire department at the same 
time it is going to be needed the most. Certainly public safety 
is paramount in the thinking of this County Commissioner.
    Mr. Schaffer. When you say fire department, you are 
referring to just the whole community, not----
    Mr. Ross. I am referring to the many, many, many contract 
loggers that have gone out of business. They were the first 
response. Now they were not the certified fire fighters, but 
they believe in putting fires out. They did not understand how 
to monitor fires and how to take these 27 objectives and 
determine whether you are going to let it burn or not. They 
knew if you did not put it out, it was going to burn up the 
whole country, and it was going to do it quick, and the quicker 
you can get on it, and that was our first response 
capabilities.
    The Coos Force Protective Association, which is an 
association of all of the private and public landowners in 
Southwestern Oregon is reluctant to do a complete closure even 
when humidity gets high. They would rather do a hoot owl where 
you start early in the morning and you go home by noon and, and 
so that they know where these people are. If you do a complete 
closure, the Cat operator, the Lowboy driver, he goes home, he 
throws the fishing equipment in the car, he takes the wife and 
the kids and heads for a lake in the Cascades, and you do not 
know where he is at. So they recognize the need for these--for 
this as their first response capability on these fires.
    Mr. Schaffer. I have one more question as well, the debate 
on status of the purchaser road credits. The debate continues 
on the purchaser road credits, it is cut in half here on House 
side. I think that is taking place, I think, this week over in 
the Senate, to some degree, that is true. With respect to your 
community, can you speak to that issue and the effect it has on 
your----
    Mr. Ross. There is two issues here and I faxed information 
to both Senator Wydon and Senator Patty Murray on this issue 
day before yesterday. Because those road funds are needed so 
that we can maintain the roads and keep the sediment from going 
in and impacting our anadromous streams. What the well-
maintained road system is what is important to parts of forest 
health as it applies to the aquatic resources.
    The other part of that was to take away the purchasers 
credits. This is a program that has worked so well. Under the 
old program, you sold a timber sale knowing that a road was 
going to have to be put in and the amount that they paid for 
that timber sale reflected the fact that they were going to 
have to build the road, build it according to the standards 
which were predetermined. With the purchaser credits, people 
bid on forest service sales as though the road is there. So 
they pay top price and then they build the road and when 
something else needs to be done, if you need a culvert that 
will allow fish passages as opposed to what has been described, 
change orders could be made so, so easily. This is not any kind 
of a subsidy to business. This is a matter of just building the 
road and using credits rather than selling at a lower price and 
allowing them to build the road predetermined. And it is one of 
our best tools in forest management and forest health when we 
can design those roads and make change orders as it goes along 
rather than the more difficult way of changing something once 
it has already been in the contract.
    Mr. Schaffer. What is going to be the results----
    Mr. Ross. Well the result was last night 51 people in the 
Senate had better sense. It failed 51 to 49.
    Mr. Schaffer. Assuming though that if those who oppose 
purchaser road credit program prevail, if that were to occur, 
with respect to forest management, this whole issue of 
atmospheric impact, and so on, what would be your guess on what 
your county would look like without road purchaser credit 
program?
    Mr. Ross. It would adversely impact the sale program. It 
would be one more thing taking away from the managers that has 
been a tool for the good environment. And they have been losing 
those tools rapidly.
    Mrs. Chenoweth. Dr. Oliver, I have some more questions that 
if you do not mind that I would like to ask you. What about 
wood as an energy source. What effect would utilizing woody 
biomass as a replacement for fossil fuels have on the levels of 
carbon in the atmosphere?
    Dr. Oliver. Well, I will ask John Perez-Garcia to add to 
this as well, but wood can be harvested and used as an energy 
source and thereby keeping fossil fuels in the ground. However, 
in terms of the efficiency of using wood in that way versus 
using wood as a direct product that would substitute for 
something like concrete or steel or aluminum or brick, you save 
a lot more energy and keep a lot more carbon dioxide out of the 
atmosphere than using wood as a substitute product. The way it 
would probably be most effective would be to use as much of the 
wood as possible as a substitute product, and use the 
residuals, the chips, the shavings, the sawdust to then be 
burned as energy to save for fossil fuels. Dr. Perez-Garcia, is 
that basically correct?
    Dr. Perez-Garcia. Yes, I would agree with what Dr. Oliver 
has stated. Basically, one of the bottom lines that I said in 
my presentation this morning was that the way to reduce 
atmospheric carbon is to save fossil fuels. Wood products do 
that. And there are two ways that wood products do that. One is 
directly substituting fossil fuels for biofuels, and the second 
way is indirectly substituting the manufactured energy that is 
based on fossil fuels through wood product production.
    Mrs. Chenoweth. Very interesting. Well, gentlemen, I do 
have other questions that I would like to submit to you. But 
for right now I am going to ask Mr. Schaffer if he has anything 
to add. I do want to say that I very, very much appreciate your 
coming across the country to join us in this hearing. Your 
testimony has been invaluable, and I appreciate it very much. 
The members of the Committee may also have additional questions 
for the witnesses and we will ask that you respond to these in 
writing. The hearing will be held open for those responses for 
three weeks.
    If there is no further business, the Chair again wants to 
thank Mr. Schaffer for joining us. We have three Subcommittee 
hearings going on out of this main Committee today, and so a 
lot of the members who wanted to be here simply could not be 
here. But as of now this Subcommittee stands adjourned.
    [Whereupon, at 12 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
                             BRIEFING PAPER

H.Con.Res. 151, Concurrent Resolution Regarding Managing Public Domain 
  National Forest to Maximize Reduction of Carbon Dioxide Among Other 
                               Objectives

Summary

    The Subcommittee on Forests and Forest Health will meet on 
Thursday, September 18, 1997, to hold a legislative hearing on 
H.Con.Res. 151, a concurrent resolution Expressing the sense of 
the Congress that the United States should manage its public 
domain National Forests to maximize the reduction of carbon 
dioxide in the atmosphere among many other objectives and that 
the Unites States should serve as an example and as a world 
leader in actively managing its public domain national forests 
in a manner that substantially reduces the amount of carbon 
dioxide added to the atmosphere.

Background

    Chairman Don Young (R-AK) introduced H.Con.Res. 151 along 
with Speaker Gingrich, Mrs. Chenoweth, chairman of the House 
Resources Subcommittee on Forests and Forest Health, Mr. Taylor 
of North Carolina, Mr. Herger, and Mr. Peterson of 
Pennsylvania, Mr. Pombo, Mr. McInnis, Mr. Sessions, Mrs. Smith 
of Washington, Mr. Riggs, Mr. Cunningham, Mrs. Cubin, Mr. 
Nethercutt, Mr. Doolittle, Mr. Lewis of California, Mr. Skeen, 
Mr. Schaffer of Colorado, Mr. Hansen, and Mr. Radanovich 
expressing the sense of Congress that the United States should 
manage its public domain national forests to maximize the 
reduction of carbon dioxide in the atmosphere.
    Global warming has been an issue of great debate and 
discussion in Congress. This is due to the fact that in 
December of this year, the United Nations Framework Convention 
on Climate Change meets in Kyoto, Japan. The Clinton-Gore 
Administration has stated publicly that they intend to commit 
the United States to mandatory greenhouse gas reductions at the 
convention in Kyoto, Japan.
    Science has proven to us that carbon dioxide, the leading 
greenhouse gas can be taken out of the atmosphere by allowing a 
young vibrant forest to absorb carbon through photosynthesis. 
It is stored as wood. Carbon dioxide can also be kept out of 
the atmosphere by harvesting the forest before it begins to 
decompose or burn, thus storing the carbon in wood products 
that are environmentally friendly, as well as providing an 
economic benefit to society.
    The most extensive scientific work on this subject has been 
conducted by Dr. John Perez-Garcia, Associate Professor, 
University of Washington, Dr. Chadwick Oliver, Professor, 
University of Washington, Bruce Lippke, Professor and Director 
of the Center for International Trade in Forest Products and R. 
Neil Sampson. A copy of their studies can be obtained from the 
Subcommittee.

Staff Contact: Bill Simmons, Staff Director, Subcommittee on 
Forests and Forest Health at X5-0691.
                                ------                                


Statement of James R. Lyons, Under Secretary for Natural Resources and 
          Environment, United States Department of Agriculture

Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to appear before you today to 
discuss the views of the Administration regarding the active 
management of the National Forests to maximize the reduction of 
carbon dioxide in the atmosphere. The Administration welcomes 
and supports efforts to address climate change, but strongly 
opposes House Concurrent Resolution 151 because it is misguided 
and undermines current national forest management laws.
    The premise of the concurrent resolution is that young, 
fast-growing trees fix carbon dioxide more efficiently than 
mature trees. Therefore, the Forest Service should maximize 
carbon sequestration by harvesting mature trees, converting the 
wood to durable products, and replanting sites with seedlings.
    As the committee is aware, the scientific basis for our 
mutually shared concerns about global climate change is very 
complex. Accordingly, our efforts to make substantive policy 
changes are equally complex and driven by scientific analysis. 
I want to make three basic points today: (1) the role of 
recycling, (2) the role of national forests in the carbon 
cycle, and (3) the potential for carbon sequestration from 
Federal lands compared with private lands.
    The Forest Service research program has done some extensive 
research quantifying the benefits of recycling wood fiber on 
carbon releases into the environment. Through technology 
developed by the Federal Government and private industry, and 
supported by government incentives to recycle, the United 
States has made a significant contribution to carbon 
sequestration by reducing energy costs of production and 
reusing wood fiber several times before sending it to a 
landfill.
    Recognizing the value of storing carbon in wood products 
and substituting wood products for more fossil fuel-consuming 
products, the President included in the 1993 Climate Change 
Action Plan a proposal to expand paper recycling technology 
research. Priorities included research on the use of recycled 
wood and fiber in durable structural products suitable for 
housing markets. The President requested a $2 million increase 
in research funding. Congress has appropriated $200,000.
    The President's Forest Plan was analyzed specifically for 
its contribution to carbon sequestration, and thus offers a 
good case study to evaluate national forest management policies 
in general. Contrary to the presumption of the concurrent 
resolution, the conservation strategy in the President's Forest 
Plan actually increases the amount of carbon dioxide 
sequestrated by about 7 million metric tons by the year 2000. 
The careful balance of forest protection and management and the 
role of old-growth forests is described well in a 1990 Science 
magazine article by Harmon, Ferrell and Franklin. In addition, 
the President's Forest Plan has strict standards about 
harvesting which are supported by scientific work by Mr. R. 
Neil Sampson. Sampson (1997) found that harvesting practices 
such as clear cutting eliminate canopy shade, increase soil 
temperatures, accelerate organic decomposition due to soil 
disturbance, and have other negative impacts on carbon storage 
in a forested ecosystem. The Forest Plan minimizes clearcuts, 
protects shade, foliage and canopy closures, minimizes ground 
disturbance, and avoids whole sale burning of slash, stumps and 
debris. Last, the President's Forest Plan meets all Federal 
land management and environmental laws, and your resolution 
would create a conflict with existing law. While your 
resolution suggests that national forests should be managed to 
maximize carbon sequestration, current law requires us to 
practice multiple use which does not allow one use or 
management goal to dominate other uses. The U.S. forest sector 
will store lO9 million metric tons of carbon in 2000. Of this, 
our National Forests are projected to fix 21 million metric 
tons of carbon in 2000, store over 8 billion of tons of carbon, 
conserve biodiversity (and thus flexibility for private land 
management), and provide for multiple use according to our 
legal mandates. And although the annual carbon storage in 
private forests is expected to decline over the next several 
decades due to declining net growth in Northeastern forests as 
the trees age and removal of trees in the South at the same 
rate of their growth, annual carbon accumulation in our 
National Forests is expected to continue increasing.
    Finally, I want to turn to the issue of maximizing growth 
of new biomass through forest management. The productivity of 
forestland in the United States varies widely across the 
country. Productivity is influenced by soil type, soil depth, 
growing season, rainfall, and other physical factors. 
Productivity is commonly measured according to the number of 
cubic feet of wood which one acre of land can grow in one 
year's time. If Congress was interested in maximizing carbon 
sequestration through tree growth, it is logical to look for 
the most productive sites which will grow the most cubic feet 
per year.
    The Forest Service published a document called the Forest 
Resources of the United States (1994) which summarizes forest 
productivity across different landownerships using a standard 
of 85 cubic feet/acre/year. In the West, 67 percent of the 
private industrial lands are capable of producing more than 85 
cubic feet per year compared to only 15 percent of the national 
forest lands in the West. The reason for this is that national 
forestlands are typically high elevation forests with shorter 
growing seasons and poorer soils. Similarly in the East, 55 
percent of the private industrial land is capable of producing 
85 cubic feet or more, and only 20 percent of the national 
forest land in the East have this level of productivity. The 
trend is the same, though less dramatic, between nonindustrial 
private lands and national forest lands in both the East and 
the West.
    Thus, if growing trees quickly is the goal of this 
resolution, it makes much more sense to focus our efforts in 
areas where we will receive the greatest return on our 
investment--the most productive lands--the private lands. The 
Forest Service can help make this investment not through a 
change in priorities for public land management, but by 
providing technical and financial assistance to private 
landowners to help them increase productivity. The state and 
private forestry programs of the Forest Service are designed to 
deliver exactly this kind of assistance to landowners. In 
addition, the Natural Resource Conservation Service administers 
a number of programs which help landowners develop and 
implement plans that promote tree planting. The more efficient 
and effective place to focus tree planting and aggressive 
management is on private lands. The President's Climate Change 
Action Plan in-

cludes two actions that provide technical assistance and cost-
sharing for nonindustrial private landowners to plant trees and 
improve forest management. These programs have resulted in tree 
planting on 135,000 acres of land.
    I want to highlight for a minute your state, Mr. Chairman. 
The State of Alaska, as well as your neighbors Washington and 
Oregon, have replanting laws which help continue the benefits 
of carbon sequestration on private lands in those states. Most 
states have forest practice laws which contribute to efforts to 
ensure that landowners practice sustainable forestry. Some 
states, such as Alabama and Georgia, do not have state forest 
practices laws, but rely instead on market conditions to 
encourage tree planting. In these cases, we depend on high 
lumber prices to promote replanting. In any case, the role of 
the private landowner, however it is influenced by state or 
Federal policy, has the opportunity to make a much more 
significant--and more profitable--contribution to carbon 
sequestration through active management of productive lands.
    There are many other efforts throughout the Forest Service 
and throughout the Administration which are targeted 
specifically to address the issue of climate change that are 
beyond the immediate scope of this resolution and this hearing. 
In summary, the Administration is enthusiastic about continuing 
this dialog with Congress about the importance of addressing 
carbon sequestration and climate change--and the role of the 
forest sector, but is compelled to strongly oppose the 
concurrent resolution. I am happy to answer questions that the 
Committee might have.
                                ------                                


      Statement of Gordon Ross, Commissioner, Coos County, Oregon

    The amount of CO<INF>2</INF> used in photosynthesis per 
acre of forest land; the amount of oxygen released into the 
atmosphere; the amount of carbon stored in the forest is in 
direct proportion to the amount of wood fiber produced.
    This is high school biology. I am not an expert witness. 
This information does not require an expert witness. This 
knowledge is part of the public domain.
    I would like to bring two aspects of forest management to 
your attention that aid in reducing greenhouse gasses on the 
globe, both of which compliment each other in addition to 
having many other societal benefits.
    First: Maximizing Forest Growth.
    For every soil classification and for each climatic 
condition there is a growth potential depending on stalking and 
non-utilizable competition.
    I happen to live in the most productive area of North 
America, the Pacific Northwest or more specifically, the 
Douglas Fir region. The federally managed portion of this area 
amounts to just under 25 million acres of which approximately 
1/2 is in mature status. According to Roger A. Sedjo in 
``Forests, a Tool to Moderate Global Warming,'' approximately 
one-half of the CO<INF>2</INF> emissions on earth annually are 
taken up in natural processes present today. Of the 5.8 billion 
tons of carbon thus emitted, 2.9 billion need to be dealt with 
if the atmosphere were to remain carbon natural. If the 12.5 
million acres of federally managed Douglas Fir forests in the 
Northwest that are presently mature, could over the next 50 
years be harvested and converted to growing forest averaging 
sequestration of 2 tons of carbon per acre per year, the 
Northwest's contribution on these lands alone would be 2 5 
million tons of carbon or about .8 percent of the needed 
additional carbon fixation on earth. This would constitute a 
major commitment on the part of the United States to the Global 
Community and would have societal benefits including jobs, 
revenue to local governments and affordable housing nationwide.
    On the converse side, if those timber lands are not 
actively so managed, the contribution of carbon to the global 
community could be equally as great when history repeats 
itself. Every acre of Douglas Fir timber prior to planned 
harvest was a result of a natural regeneration event, mostly 
fire. If ever we needed to heed the lessons of history, it is 
now. If we do not harvest, nature will and without any of the 
societal benefits and at a great threat to public safety.
    The second aspect of forest management I wish to give a few 
minutes to is fire. Wildfire has been touted in recent years as 
the forester panacea, the answer to all our forest health 
problems; but fire of catastrophic proportions is the most 
rapid form of oxidation in the forest. Beyond that point, the 
timber that is dead continues to rot, a slower form of 
oxidation. Finally, when the oxidation is complete, the tree 
has turned to soil and the carbon has united with oxygen and is 
in the atmosphere. When a forest reaches the point where there 
is no net increase in wood fiber (when it is oxidizing as 
rapidly as it is growing there is then no net benefit to the 
atmosphere). In maximizing wood fiber production we not only 
maximize the benefit to our atmosphere but we also produce 
societal benefits such as homes, jobs and government services. 
Further, in Western Oregon our managed forests are also pro-

ducing better aquatic resources. Coos County annually harvests 
more timber than any county on the Pacific Coast and it has 
more Coho Salmon than any county on the Pacific Coast. In fact, 
it has more Coho than all the rest of the Oregon counties put 
together.
    When my forebears came to Western Oregon in the early 
1850's they found even aged stands of Douglas Fir in varying 
ages of growth depending on how long it had been since the last 
fire. What is now the Siuslaw National Forest was ashes. They 
saw the fire of 1868 jump the South Fork of Coos River and burn 
over 1/3 of Coos County. This was a function of nature, a 
recycling of carbon but at a time before we began using fossil 
fuels. Today, when the average American uses 7 gallons of 
petroleum per day to transport themselves, their supplies and 
services, there is no dispute but that there is adequate carbon 
in the atmosphere for our crops and forests to meet their 
maximum growth potential. The forest effected by the N.W. 
Forest Plan have the potential of growing 5 billion board feet 
of timber per year.
    If we only harvest 10 percent of that potential as under 
the Northwest Forest Plan, eventually the forests will only be 
growing at that rate. However, speaking historically, we can 
say with assured certainty, if we do not harvest at a rate 
closely approaching growth potential, nature will, through 
catastrophic fire.
    In the Northwest, as we see our mills and logging 
operations shutting down, as we see timber being imported, 
further tilting our balance of trade; as we witness the loss of 
jobs, loss of county revenue for public health and safety we 
are also witnessing the loss of the largest fire department 
ever assembled in the history of the world. The loggers and 
their bulldozers and lowboys and water wagons and fire fighting 
equipment and manpower and just plain know how. As fuel buildup 
continues, our ability to deal with it decreases.
    Because Coos County is in the general proximity of the best 
tree growing area in North America, and because we maximize 
that growth by optimizing our harvest cycle, it is encouraging 
to know that Coos County has done more to enhance the 
atmosphere in the past century than probably any other county 
of its size in America.
    We, from Coos County, Oregon, would like to challenge the 
rest of America, through legislative commitment to do as well.
    Thank you.

    [GRAPHIC] [TIFF OMITTED] T6036.001
    
    [GRAPHIC] [TIFF OMITTED] T6036.002
    
    [GRAPHIC] [TIFF OMITTED] T6036.003
    
    [GRAPHIC] [TIFF OMITTED] T6036.004
    
    [GRAPHIC] [TIFF OMITTED] T6036.005
    
    [GRAPHIC] [TIFF OMITTED] T6036.006
    
    [GRAPHIC] [TIFF OMITTED] T6036.007
    
    [GRAPHIC] [TIFF OMITTED] T6036.008
    
    [GRAPHIC] [TIFF OMITTED] T6036.009
    
    [GRAPHIC] [TIFF OMITTED] T6036.010
    
    [GRAPHIC] [TIFF OMITTED] T6036.011
    
    [GRAPHIC] [TIFF OMITTED] T6036.012
    
    [GRAPHIC] [TIFF OMITTED] T6036.013
    
    [GRAPHIC] [TIFF OMITTED] T6036.014
    
    [GRAPHIC] [TIFF OMITTED] T6036.015
    
    [GRAPHIC] [TIFF OMITTED] T6036.016
    
    [GRAPHIC] [TIFF OMITTED] T6036.017
    
    [GRAPHIC] [TIFF OMITTED] T6036.018
    
    [GRAPHIC] [TIFF OMITTED] T6036.019
    
    [GRAPHIC] [TIFF OMITTED] T6036.020
    
    [GRAPHIC] [TIFF OMITTED] T6036.021
    
    [GRAPHIC] [TIFF OMITTED] T6036.022
    
    [GRAPHIC] [TIFF OMITTED] T6036.023
    
    [GRAPHIC] [TIFF OMITTED] T6036.024
    
    [GRAPHIC] [TIFF OMITTED] T6036.025
    
    [GRAPHIC] [TIFF OMITTED] T6036.026
    
    [GRAPHIC] [TIFF OMITTED] T6036.027
    
    [GRAPHIC] [TIFF OMITTED] T6036.028
    
    [GRAPHIC] [TIFF OMITTED] T6036.029
    
    [GRAPHIC] [TIFF OMITTED] T6036.030
    
    [GRAPHIC] [TIFF OMITTED] T6036.031
    
    [GRAPHIC] [TIFF OMITTED] T6036.032
    
    [GRAPHIC] [TIFF OMITTED] T6036.033
    
    [GRAPHIC] [TIFF OMITTED] T6036.034
    
    [GRAPHIC] [TIFF OMITTED] T6036.035
    
    [GRAPHIC] [TIFF OMITTED] T6036.036
    
    [GRAPHIC] [TIFF OMITTED] T6036.037
    
    [GRAPHIC] [TIFF OMITTED] T6036.038
    
    [GRAPHIC] [TIFF OMITTED] T6036.039
    
    [GRAPHIC] [TIFF OMITTED] T6036.040
    
    [GRAPHIC] [TIFF OMITTED] T6036.041
    
    [GRAPHIC] [TIFF OMITTED] T6036.042
    
    [GRAPHIC] [TIFF OMITTED] T6036.043
    
    [GRAPHIC] [TIFF OMITTED] T6036.044
    
    [GRAPHIC] [TIFF OMITTED] T6036.045
    
    [GRAPHIC] [TIFF OMITTED] T6036.046
    
    [GRAPHIC] [TIFF OMITTED] T6036.047
    
    [GRAPHIC] [TIFF OMITTED] T6036.048
    
    [GRAPHIC] [TIFF OMITTED] T6036.049
    
    [GRAPHIC] [TIFF OMITTED] T6036.050
    
    [GRAPHIC] [TIFF OMITTED] T6036.051
    
    [GRAPHIC] [TIFF OMITTED] T6036.052
    
    [GRAPHIC] [TIFF OMITTED] T6036.053
    
    [GRAPHIC] [TIFF OMITTED] T6036.054
    
    [GRAPHIC] [TIFF OMITTED] T6036.055
    
    [GRAPHIC] [TIFF OMITTED] T6036.056
    
    [GRAPHIC] [TIFF OMITTED] T6036.057
    
    [GRAPHIC] [TIFF OMITTED] T6036.058
    
    [GRAPHIC] [TIFF OMITTED] T6036.059
    
    [GRAPHIC] [TIFF OMITTED] T6036.060
    
    [GRAPHIC] [TIFF OMITTED] T6036.061
    
    [GRAPHIC] [TIFF OMITTED] T6036.062
    
    [GRAPHIC] [TIFF OMITTED] T6036.063
    
    [GRAPHIC] [TIFF OMITTED] T6036.064
    
    [GRAPHIC] [TIFF OMITTED] T6036.065
    
    [GRAPHIC] [TIFF OMITTED] T6036.066
    
    [GRAPHIC] [TIFF OMITTED] T6036.067
    
    [GRAPHIC] [TIFF OMITTED] T6036.068
    
    [GRAPHIC] [TIFF OMITTED] T6036.069
    
    [GRAPHIC] [TIFF OMITTED] T6036.070
    
    [GRAPHIC] [TIFF OMITTED] T6036.071
    
    [GRAPHIC] [TIFF OMITTED] T6036.072
    
    [GRAPHIC] [TIFF OMITTED] T6036.073
    
    [GRAPHIC] [TIFF OMITTED] T6036.074
    
    [GRAPHIC] [TIFF OMITTED] T6036.075
    
    [GRAPHIC] [TIFF OMITTED] T6036.076
    
    [GRAPHIC] [TIFF OMITTED] T6036.077
    
    [GRAPHIC] [TIFF OMITTED] T6036.078
    
    [GRAPHIC] [TIFF OMITTED] T6036.079
    
    [GRAPHIC] [TIFF OMITTED] T6036.080
    
    [GRAPHIC] [TIFF OMITTED] T6036.081
    
    [GRAPHIC] [TIFF OMITTED] T6036.082
    
    [GRAPHIC] [TIFF OMITTED] T6036.083
    
    [GRAPHIC] [TIFF OMITTED] T6036.084
    

</pre></body></html>
